    January 6, 2006




Financial Management

Report on Army Management of the
Army Game Project Funding
(D-2006-043)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
ADA                   Antideficiency Act
AGP                   Army Game Project
AIS                   Automated Information System
ASA(M&RA)             Assistant Secretary of the Army for Manpower and Reserve
                         Affairs
COTS                  Commercial-off-the-Shelf
FMR                   DoD Financial Management Regulation
IT                    Information Technology
MOVES                 Modeling, Virtual Environments and Simulation Institute
MIPR                  Military Interdepartmental Purchase Request
NPS                   Naval Postgraduate School
OEMA                  Office of Economic and Manpower Analysis
O&M                   Operation and Maintenance
RDT&E                 Research, Development, Test and Evaluation
                              INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704




                                                                           January 6,2006

MEMORANDUM FOR ASSISTANT SECRETARY OF THE ARMY FOR
                   MANPOWER AND RESERVE AFFAIRS
                NAVAL INSPECTOR GENERAL
SUBJECT: Report on Army Management of the Army Game Project Funding
         (Report No. D-2006-043)

      We are providing this report for review and comment. We considered
management comments on a draft of this report when preparing the final report.
       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Department of the Army comments were nonresponsive. We request additional
comments on all Recommendations. Management comments should include for each                ,

recommendation concurrence or nonconcurrence, corrective actions planned, and
estimated date of completion. We request that the Assistant Secretary of the Army
(Manpower and Reserve Affairs) provide comments on all Recommendations by
March 6,2006.
        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AudDFS@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Byron B. Harbert at (303) 676-7392 (DSN 926-7392) or Mr. Jeffrey A. Lee at
(303) 676-7429 (DSN 926-7429). The team members are listed inside the back cover.
See Appendix B for the report distribution.




                                       Defense Financial Auditing
                                                Service
               Department of Defense Office of Inspector General
Report No. D-2006-043                                                    January 6, 2006
   (Project No. D2004-D000FD-0146.001)

           Army Management of the Army Game Project Funding

                                 Executive Summary

Who Should Read This Report and Why? Army financial management and
procurement personnel should read the reports in this series. The report discusses the
Army management and funding of the Army Game Project.

Background. In May 2000, the Assistant Secretary of the Army for Manpower and
Reserve Affairs and President of Naval Postgraduate School entered into a memorandum
of agreement. The memorandum of agreement called for the Naval Postgraduate School
to develop a state-of-the-art video game for the Army. The Naval Postgraduate School
engaged the Modeling, Virtual Environments and Simulation Institute, an institute within
the Naval Postgraduate School, to perform the research and development work. The
Army’s purpose for having the game developed was to educate potential recruits on the
missions and functions of the Army as well as enhance recruiting opportunities. The
game simulates the highly technological nature of modern Army warfare. The Army
believed the game would stimulate interest and assist in meeting enlistment goals.

In March 2004, the Naval Postgraduate School received a memorandum from the Army
that cited allegations of project mismanagement. As a result, the Naval Postgraduate
School management contacted the Naval Inspector General and requested they look into
the allegations the Army raised. However, because the issues surrounding the allegations
involved an Army organization and the Army funded the project in question, the Naval
Inspector General referred the issue to the DoD Office of Inspector General for Auditing.
This is the second in a series of two reports regarding the development and management
of the Army Game Project. The first report, D-2005-103, was issued on August 24,
2005.

Results. The Army did not properly fund the Army Game Project and may have violated
the Antideficiency Act. Specifically, the Army:

       •   did not use the correct appropriation to fund the Army Game Project,

       •   did not fully fund the Army Game Project from obligation authority available
           at the time the Army Game Project was issued and accepted, and

       •   obligated and expended Army Game Project funds for items that did not
           support the development of the Army Game Project.

As a result, DoD Financial Management Regulation funding requirements were not met,
which may have caused violations of the Antideficiency Act. The Assistant Secretary of
the Army for Manpower and Reserve Affairs should establish procedures that ensure
project orders are funded with the DoD Financial Management Regulation prescribed
appropriation and are fully funded in the fiscal year that project orders are issued and
accepted. Procedures that ensure the funds for project orders are expended in accordance
with the DoD Financial Management Regulation should also be established.

Further, the potential Antideficiency Act violations should be reported in accordance
with the DoD Financial Management Regulation. (See the Finding section of the report
for the detailed recommendations.)

Management Comments and Audit Response. The Principal Deputy Assistant
Secretary of the Army (Manpower and Reserve Affairs) did not comment on our report
recommendations. However, comments were received on the finding. Those comments
were considered nonresponsive. Management concurred with one part of the finding and
nonconcurred with two parts of the finding. We do not agree with the Army that they
used the correct appropriation to fund the Army Game Project, and that they properly
obligated and expended Army Game Project funds for items that supported the Project.
Further, Army did not provide details on corrective actions taken on failing to fully fund
the Army Game Project from obligation authority available at the time the Project was
issued and accepted. We request that the Assistant Secretary of the Army (Manpower
and Reserve Affairs) provide comments on the final report by March 6, 2006. See the
Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                           i

Background                                                  1

Objectives                                                  1

Finding
     A. Army Management of the Army Game Project Funding    2

Appendixes
     A. Scope and Methodology                               9
         Prior Coverage                                     9
     B. Report Distribution                                10

Management Comments
     Department of the Army                                13
Background
    The Naval Inspector General referred to us allegations an Army organization
    made regarding management of an Army-funded research and development
    project at the Naval Postgraduate School (NPS). However, during the audit,
    Army mismanagement of both the Army Game Project (AGP) funding and
    expenditure of AGP funds were noted. This report discusses those issues.

    Development of the Army Game. In May 2000, the Assistant Secretary of the
    Army for Manpower and Reserve Affairs (ASA[M&RA]) and President of NPS
    entered into a memorandum of agreement for NPS to develop a state-of-the-art
    video game for the Army. The ASA(M&RA) provided funds to NPS to complete
    the tasks of the memorandum of agreement. The funds were provided in the form
    of a project order. NPS engaged the Modeling, Virtual Environments and
    Simulation Institute (MOVES), an institute within NPS, to perform the research
    and development work. The Army’s purpose for having the game developed was
    to educate potential recruits on the missions and functions of the Army as well as
    enhance recruiting opportunities. The game simulates the highly technological
    nature of modern Army warfare.

    Army officials believed the game would stimulate interest among potential
    recruits and assist in meeting enlistment goals. The Director, Office of Economic
    and Manpower Analysis (OEMA) under the ASA(M&RA), developed the
    concept for the Army game and subsequently served as the Manager of AGP. In
    that capacity, he managed the development and operational phases of AGP.
    Criteria for managing project orders are contained in DoD 7000.14-R, DoD
    “Financial Management Regulation” (FMR).


Objectives
    Our overall objective was to evaluate both the Army funding of AGP and the
    Army expenditure of AGP funds. See Appendix A for a discussion of the scope
    and methodology and prior coverage.


Management Control Program Review
    This review was performed as part of the audit regarding allegations of project
    mismanagement of AGP by NPS (report D-2005-103, August 24, 2005).
    Although announced for the audit of NPS, review of the management control
    program was not part of the review of the Army funding of AGP and Army
    expenditure of AGP funds. Therefore, we did not evaluate the management
    control program as it related to the Army funding of AGP and Army expenditure
    of AGP funds.




                                        1
           Army Management of the Army Game
              Project Funding
           The Army did not properly fund AGP and may have violated the
           Antideficiency Act (ADA). Specifically, the Army

                   •   did not use the correct appropriation to fund AGP,

                   •   did not fully fund AGP from obligation authority available at
                       the time the AGP was issued and accepted, and

                   •   obligated and expended AGP funds for items that did not
                       support the development of AGP.

           Those conditions occurred because the Manager of AGP was unaware of
           the financing requirements prescribed in the DoD FMR, and the Office of
           the ASA(M&RA) did not have a process for ensuring that regulatory
           requirements were met. As a result, DoD FMR funding requirements
           were not adhered to, which may have caused violations of ADA.


Guidance on Appropriations, Project Order Funding, and
  Expenditure of Project Order Funds
    Congress allows DoD activities to acquire goods or services from other DoD
    activities through a process that DoD FMR, Volume 11A, “Reimbursable
    Operations, Policy and Procedures,” Chapter 2, identifies as project orders. The
    DoD FMR stipulates that the performance period for a project order may extend
    beyond the appropriation expiration date but not beyond the point the
    appropriation is cancelled, which is generally 5 years after the appropriation
    expires for new obligations. Additionally, receipt and acceptance of a project
    order is the source of obligation authority for the DoD entity performing the
    project order. This allows the project performer to incur obligations against the
    funding appropriation, even if the appropriation expired.

    Appropriations. DoD Comptroller memorandum, “Clarification of Policy -
    Budgeting for Information Technology (IT) and Automated Information Systems
    (AIS),” issued October 26, 1999, provides guidance on budgeting for IT and AIS
    in response to a House Appropriations Committee concern that DoD was not
    complying with existing DoD FMR requirements on development and acquisition
    of IT and AIS. The memorandum also provides budgeting guidelines designed to
    help determine how to program and budget for IT systems. The guidelines are
    contained in Volume 2A, “Budget Formulation and Presentation,” Chapter 1,
    “General Information,” of the DoD FMR. Paragraph 010212, Budgeting for IT
    and AISs, subparagraph B provides the following guidance.



                                         2
       Development, test and evaluation requirements, including designing prototypes
       and processes, should be budgeted in the Research, Development, Test and
       Evaluation (RDT&E) appropriations. The RDT&E funds should be used to
       develop major upgrades increasing the performance envelope of existing
       systems, purchase test articles, and conduct developmental testing and/or initial
       operational test and evaluation prior to system acceptance. In general, all
       developmental activities involved in bringing a program to its objective system
       are to be budgeted in RDT&E. Commercial-off-the-shelf (COTS) systems that
       require engineering design, integration, test, and evaluation to achieve the
       objective performance will be budgeted in RDT&E.

Congressional Concern. The House Committee on Appropriations expressed
concern in both 1999 and 2000 about the funding of IT systems in DoD. The
Committee was concerned with DoD use of operation and maintenance (O&M)
appropriations for purposes inconsistent with that appropriation. The Committee
specifically cited that use of O&M appropriations to finance development or
procurement of IT resources that, in accordance with the DoD FMR, should have
been financed either with RDT&E or procurement appropriations.

Funding Project Orders. The DoD FMR requires that DoD Components fully
finance project orders from obligation authority that is current at the time the
project order is issued and accepted. Additionally, once the activity performing
the project order accepts it in writing, the amount of the order must be recorded in
the requesting activity’s financial records as an obligation for the amount stated in
the order. The DoD FMR also provides that issuance of a funded order (that is,
project orders) in excess of available funds may result in a violation of ADA.

Expending Funds in Support of the Project Order. According to the
DoD FMR, the agency performing the project order may obtain component parts
by placing subsidiary orders with Government agencies, which includes DoD
agencies. However, the DoD FMR requires that the parts be assembled in the
end-item delivered to the requester. This requirement prevents, among other
things, illegally continuing availability of appropriations beyond the period
Congress authorized. For example, obligating project order funds, financed by an
expired appropriation, to purchase goods or services not assembled in the
end-item would violate subsection 1502(a), title 31, United States Code,
(31 U.S.C. 1502[a]), which is discussed later.

Antideficiency Act. The Government Accountability Office, Appropriations
Law Manual discusses the ADA and the availability of appropriations, while the
DoD FMR prescribes procedures for investigating potential ADA violations.

Chapter 5 of Government Accountability Office, “Principles of Federal
Appropriations Law,” third edition, volume 1, January 2004, discusses
31 U.S.C. 1341(a), (references to ADA in this report are to 31 U.S.C. 1341(a),
one of the ADA statutes). The ADA is codified in a number of sections of title 31
of the United States Code (specifically, 31 U.S.C. 1341(a), 1342, 1349 through
1351, 1511(a), 1512 through 1519). The purpose of those statutory
provisions─known


                                          3
    collectively as the ADA─is enforcing the powers of the purse that resides in
    Congress with respect to the purpose, time, and amount of expenditures the
    Federal Government makes.

    Violations of other laws may trigger violation of ADA provisions. Examples of
    laws include the “bona fide needs rule,” 31 U.S.C. 1502(a); the “purpose statute,”
    31 U.S.C. 1301(a); and violations of various statutory spending limitations such
    as 10 U.S.C. 2805, “Unspecified minor construction.” Where this audit found
    potential violations of the ADA, the report refers specifically to
    31 U.S.C. 1341(a)(1)(A) and (B). ADA prohibits that an officer or employee of
    the U.S. Government

           •   make or authorize an expenditure or obligation exceeding an amount
               available in an appropriation or fund for the expenditure or obligation,
               and

           •   involve the Government in a contract or obligation for the payment of
               money before an appropriation is made unless authorized by law.

    Chapter 5 also discusses 31 U.S.C. 1502(a), which provides
        The balance of an appropriation . . . limited for obligation to a definite period is
        available only for payment of expenses properly incurred during the period of
        availability or to complete contracts properly made within that period of availability
        and obligated consistent with section 1501 of this title.
    Because a project order is similar to a contract, an appropriation used to finance
    the project order remains available to complete the project order.

    DoD FMR, Volume 14, Chapter 3, stipulates that upon learning of or detecting a
    possible violation, the individual concerned shall, within 10 working days, report
    the possible violation through the chain of command. The Army should inform
    the Director of Resource Management at the Service activity or the person
    holding the equivalent position of any potential violations. In addition, the
    Director of Resource Management should immediately notify the commander
    responsible for the allowance/allotment involved in the alleged violation. Such a
    notification is referred to in the Army as the “Flash Report─Potential
    Antideficiency Act Violation.”


Correct Appropriation to Fund Development of AGP
    Although development of AGP was consistent with the DoD FMR definition of
    an IT resource for which the DoD FMR required financing from an RDT&E
    appropriation, the Army financed the project from O&M appropriations.

    IT resources can be developed from a COTS package. However, if the COTS
    package is further developed to meet a requester’s specified performance, the
    DoD FMR requires purchase of the COTS package and further development of
    that COTS package to be financed from an RDT&E appropriation.


                                             4
    NPS used the Unreal Engine, a COTS package, for initial development of AGP.
    Programmers wrote game code and scripts that produced a unique atmosphere and
    identity for AGP. Written on top of the Unreal Engine, that code incorporated all
    AGP game assets into a coherent interactive experience.

    The AGP was developed by NPS to attain the objective performance the Army
    specified. Therefore, as both the DoD Comptroller memorandum and the
    DoD FMR require, the Army should have financed AGP from an RDT&E
    appropriation rather than Army O&M appropriations.


Fully Funded Project Order

    In addition to incorrectly using O&M funds to finance AGP, the Army did not
    fully fund the project order, as the DoD FMR requires, with funds available when
    the project order for the AGP was placed. The Army provided NPS with eight
    DD Forms 448, Military Interdepartmental Purchase Requests (MIPRs), over
    4 years, citing O&M funds in each of those 4 years. The MIPRs totaled
    $13,412,943. The Army issued and NPS accepted the AGP in May 2000.
    Therefore, AGP should have been fully funded from obligation authority
    available in FY 2000. Of those eight MIPRs, seven totaled $9,912,984 and cited
    funds from fiscal years after FY 2000. If sufficient FY 2000 funds were not
    available to fund the project, issuance of the AGP project order may have violated
    ADA.


Army Expenditure of AGP Funds
    OEMA received subsidiary orders for AGP totaling $2,466,500. However,
    OEMA expended $2,011,100 of those funds on eight items not assembled in the
    end-item delivered to the Army as the DoD FMR requires. Those expenditures
    were for operational support or modification of the video game after development
    and delivery of AGP by NPS. Because those expenditures did not support
    development of AGP, OEMA may have violated ADA if sufficient O&M or
    RDT&E funds, as appropriate, were not available to finance those acquisitions.

Inappropriate Funding and Expenditures
    The AGP Manager was not aware of the financing and expenditure guidance the
    DoD FMR prescribed. Additionally, the Office of the ASA(M&RA) did not have
    a process that would ensure financing of project orders the office issued and
    expenditure of project order funds were in accordance with limitations imposed
    by the DoD FMR.




                                        5
Conclusion
    Violations of the ADA may have occurred. As a result, the Army should perform
    an ADA investigation conducted in accordance with the DoD FMR and
    applicable regulations. Additionally, the Army should refinance AGP with the
    required RDT&E appropriation as well as finance any future orders in accordance
    with the DoD FMR.


Management Comments on the Finding and Audit Response
    Management Comments on the correct appropriation to fund AGP. The
    Army Principal Deputy Assistant Secretary (Manpower and Reserve Affairs)
    provided comments dated November 23, 2005, and stated that the Army Game
    Project (AGP) was properly funded using operations and maintenance (O&M)
    funds. According to the comments, AGP was a part of Army’s marketing strategy
    for recruiting. They concluded that because recruiting efforts are normally
    funded with O&M, AGP was appropriately funded and that AGP was not a
    development effort. Instead, they stated that AGP was put together using a
    commercial off-the-shelf software package that was further modified by adding
    models, animations, scenarios, and sound files. They indicated that the process
    was not unlike adding specific content to an Excel spreadsheet. Army
    management also stated that DoD IG audits, the DoD FMR, and Federal Financial
    Accounting Standards Board Interpretation 6 supports their belief that AGP is not
    an information technology (IT). Finally, Army indicated in their comments that
    AGP does not fall into the category of IT because it does not transmit information
    or data for any objective purpose.

    Audit Response. We do not agree with the Army that AGP was properly funded
    using O&M funding. As discussed in the finding in this report, AGP is an IT
    product which requires it be funded using Research, Development, Test, and
    Evaluation (RDT&E) funding. We disagree with the Army’s opinion that since
    O&M funds are normally used to fund recruiting efforts, funding of AGP was
    proper. The type of funding used to make purchases is dependent on what is
    specifically purchased, and the development of computer software must be
    purchased with RDT&E funds.

    In addition, we do not agree with the Army’s response that AGP was not a
    development project. Army management acknowledged that the creation of the
    AGP computer video game was a research and development effort in their
    Memorandum of Agreement (MOA) with the Naval Postgraduate School (NPS).
    In the MOA, the Army instructed the developer (NPS) to conduct necessary
    research and development to create a state-of-the-art Army computer game that
    maximizes the elements of adventure and attribute building. In fact, a
    developmental effort encompassing the specialized skills of many individuals was
    required to bring the video game to fruition. For example, the NPS Modeling,
    Virtual Environments and Simulation (MOVES) Institute employed several
    technical experts, including designers, artists, modelers, sound engineers, and


                                        6
animators working with programmers writing game code and scripts to produce
the games unique atmosphere and identity. AGP programmers wrote code on top
of the game engine to incorporate all assets into a state-of-the-art interactive
computer game.

The Army stated that justification for not classifying AGP as IT is contained in
DoD IG audits and the FMR. The Army cited one IG report (No. D-2000-063,
dated December 17, 1999). We did not find anything in this report or the FMR
that would support the Army’s conclusion. Also, the Army cites Financial
Accounting Standards Board (FASB) Interpretation 6 as further evidence that the
AGP should not be accounted for as an IT RDT&E effort. We do not agree that
the prescribed accounting treatment for software pertains in any manner to the
Army’s determination of which funds to use for such purchases. In this case, both
public law and the FMR define requirements for funding IT acquisitions and
related RDT&E projects. Finally, the Army indicated that AGP should not be
classified as IT because it does not transmit information or data for any objective
purpose. Information contained in the Army’s comments contradicts this belief.
For example, the Army stated in their comments that the Army Game enables
both the potential recruit and recruiter to gather information useful to the
recruiting process.

Management Comments on fully funding AGP from available obligation
authority. The Army concurred with this part of the finding and stated they are
taking corrective action. However, the Army did not specifically state what
action they are taking.

Audit Response. We request the Army provide us with a description of their
corrective actions and the planned dates for completion of corrective actions.

Management Comments on obligating and expending AGP funds
appropriately. The Army commented that funds returned to them by NPS were
used appropriately to pay for outstanding AGP tasks associated with selected
items. Seven of the eight selected items that we questioned that were funded with
returned funds were listed as being proper expenditures.

Audit Response. We do not agree with the Army that funds were properly
expended on eight selected items. We acknowledge that the Army requested
unexpended funds be returned because of NPS’ mismanagement of the AGP.
However, the funds were provided by NPS to the Army as a subsidiary order.
This requires that all goods or services purchased must be incorporated into the
final item. We identified eight items valued at $2,011,100 that could not be
defined as being part of the end item.

Audit Summary Response. The Army’s comments are not responsive to the
findings, conclusions, and recommendations. Further, the Army Deputy General
Counsel (Ethics & Fiscal) recommended in an August 22, 2005, memorandum to
the Assistant Secretary of the Army (Manpower and Reserve Affairs) that the
Army concur with our proposed recommendations. We request the Army
reconsider their position and provide comments on the final report.



                                     7
Recommendations
    We recommend the Assistant Secretary of the Army for Manpower and Reserve
    Affairs:

           1. Establish procedures that ensure project orders are:

                  a. Funded with the DoD Financial Management Regulation
    prescribed appropriation.

                  b. Fully funded in the fiscal year in which the project order is
    issued and accepted.

           2. Establish procedures requiring project order funds be expended in
    accordance with the DoD Financial Management Regulation.

           3. Correct funding of the Army Game Project by removing charges to the
    applicable operation and maintenance appropriations and by charging an FY 2000
    Research, Development, Test and Evaluation appropriation for the full amount of
    the order if those funds are available.

           4. Upon correction, determine whether any violations of the
    Antideficiency Act occurred.

           5. Report any Antideficiency Act violations in accordance with DoD
    7000.14-R, “Financial Management Regulation,” Volume 14, “Administrative
    Control of Funds and Antideficiency Act Violations,” Chapter 3, “Preliminary
    Reviews of Potential Violations.”


Management Comments and Audit Response
    Management Comments. The Army’s response did not include comments on
    the recommendations.

    Audit Response. We request the Army provide comments on the final report
    stating concurrence or nonconcurrence and actions planned.




                                         8
Appendix A. Scope and Methodology
    We evaluated the management of AGP by the Office of the ASA(M&RA). That
    office sponsored the project at a cost of more than $13 million.

    We collected, reviewed, and analyzed documents dated May 2000 through
    June 2004. Specifically, we examined Army AGP funding documents issued
    from FY 2000 through FY 2003. Additionally, we reviewed Army and NPS
    documents related to expenditure of AGP funds from FY 2002 through FY 2004.
    We interviewed personnel within the Office of the ASA(M&RA) to gain an
    understanding of the processes and management controls used to fund AGP and
    to determine the purpose of selected AGP expenditures. We used criteria in the
    DoD FMR, and the Government Accountability Office, Appropriations Law
    Manual, Volume 1, Chapter 5 as a guide in reviewing the funding and expenditure
    practices personnel within the Office of the ASA(M&RA) employed.

    We performed this audit from April 2004 through July 2005 in accordance with
    generally accepted government auditing standards.

    Use of Computer-Processed Data. We used data and reports generated from the
    NPS Department Online Reporting System but did not rely on the information in
    that system to support our finding. We obtained source documentation, which
    validated the data used from this system.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the DoD Financial Management and Contract Management
    high-risk areas.

Prior Coverage
    Although no prior audits were conducted specifically related to Army funding of
    project orders during the last 5 years, we recently issued the following report that
    addressed NPS development and management of AGP. Unrestricted DoD-OIG
    reports can be accessed at http://www.dodig.mil/audit/reports.


DoD IG
    Audit Report No. D-2005-103, “Development and Management of the Army
    Game Project,” August 24, 2005




                                          9
Appendix B. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
 Deputy Chief Financial Officer
 Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Manpower and Reserve Affairs)
Auditor General, Department of the Army
Office of Economic and Manpower Analysis

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
President, Naval Postgraduate School

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Commands
Inspector General, U.S. Joint Forces Command

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations


                                          10
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        11
Department of the Army Comments




                    13
14
15
16
17
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Byron B. Harbert
Jeffrey A. Lee
Samuel R. Mensch
Jason T. Hamilton
William F. Kissler
